                  The Business Systems Development
                Organization Can Improve Management of
                     Information Services Requests

                                   October 2004

                       Reference Number: 2005-20-004




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   October 28, 2004


      MEMORANDUM FOR CHIEF INFORMATION OFFICER


      FROM:                        Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - The Business Systems Development
                                   Organization Can Improve Management of Information Services
                                   Requests (Audit # 200420010)


      This report presents the results of our review of the Business Systems Development
      (BSD) organization’s efforts to effectively manage its information services requests.
      This review is part of our Fiscal Year (FY) 2004 audit plan for reviews to assess the
      adequacy of the Internal Revenue Service’s (IRS) information technology.
      In summary, the BSD organization is one of the largest functions in the Modernization
      and Information Technology Services (MITS) organization in terms of both size and
      resources. For FY 2004, the BSD organization had a budget of $336 million and
      1,916 full-time equivalent (FTE)1 positions. It receives information services requests
      from the IRS’ business operating divisions and functional organizations through the
      Request for Information Services (RIS) process, which provides a common framework
      to document, control, monitor, and track requirement changes to IRS computer systems
      and requests for information technology support.
      Managing and coordinating computer programming changes is a challenge in an
      organization that processes about 1,500 information services requests annually. The
      MITS organization is addressing this challenge and is making progress in improving the
      information services request process. For example, it has used its Resources
      Allocation and Measurement (RAM) function as a control to ensure the RISs considered




      1
       A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
      particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
                                                          2

the business practices and technology associated with the Enterprise Architecture.2
Also, it sponsored a study to identify actions to improve the RIS process.
Our analysis of the RIS process determined the RISs are assigned to the BSD
organization’s subordinate offices based on their respective responsibilities, prioritized
by RIS category,3 usually worked on a first-in first-out basis, and generally timely
completed. The MITS organization Enterprise Governance (MEG)4 Investment
Management (MIM) subcommittee was established to ensure information technology
investments comply with IRS policies and procedures and align with enterprise,
business operating division, and functional organization strategic goals.
The BSD organization does not have a formal profile of its staff’s current skills and
abilities to allow it to align its workforce with the workload. The BSD organization’s
management stated that when specific skills are needed to complete a RIS and the
needed skills are not available within the assigned group, the skills are either
transferred in from another group or the work is accomplished by contracting the work
outside the IRS. The BSD organization’s management further stated the absence of
adequate time to anticipate RIS receipts may not allow them to identify, train, or assign
staff with the skills needed to deliver the RISs. To date, BSD organization management
has addressed this shortfall by relying on the exceptional skills and abilities of the
workforce and overtime to meet workload demands.
The absence of a process to identify and catalog the BSD organization staff’s skills,
experience, and work assignments makes it difficult for the BSD organization’s
management to quantify the capability of its workforce to meet the workload demand. In
September 2003, we issued a report5 about the MITS organization’s human capital
management. The Chief Information Officer (CIO) agreed with our report and directed
the MITS organization’s Senior Leadership Team to develop a process for identifying
and articulating human capital demand. Completion of this effort was scheduled for
September 30, 2004.
The BSD organization developed a database called the Taxonomy6 Repository to allow
users to identify the BSD organization work projects, subprograms and programs, and
the resources associated with them. Neither a business case nor a cost-benefit
analysis was prepared as part of the project development. The BSD organization’s
management advised that the subordinate offices have not consistently updated the
Taxonomy Repository. As a result, the database information is not always reliable.


2
  The Enterprise Architecture defines the IRS target business practices, the systems that enable the target business
practices, and the technology that will support it, and serves as a guide to the IRS’ Modernization Program and
investment decisions.
3
  The RIS categories are: Legislative, Sustaining Operations, PRIME Modernization, Enhancements, and
Commissioner’s Mandate.
4
  The MEG is the highest level recommending and decision-making body to oversee and enhance enterprise
management of information systems and technology.
5
  The Modernization, Information Technology and Security Services Organization Needs to Take Further Action to
Complete Its Human Capital Strategy (Reference Number 2003-20-209, dated September 2003).
6
  Taxonomy is the science or technique of classification dealing with identification and naming.
                                                          3

Through FY 2004, the IRS will have spent $2,275,073 on the Taxonomy Repository.
Projected costs to continue operating the Repository are about $759,800 over 5 years.
To further the improvements in the RIS process, we recommended the CIO incorporate
the MIM subcommittee’s technology investment portfolio decisions into the RIS
prioritization process. The BSD organization should work with the RAM function to
incorporate these investment decisions into the RIS prioritization process, along with the
process to screen the RISs for Enterprise Architecture compliance. Further, the CIO
should ensure the BSD organization works with the Director, Management Services, in
completing the corrective actions to our prior report to develop a process to identify and
articulate human capital demand. Also, the CIO should evaluate the Taxonomy
Repository to determine whether it should continue to be funded and maintained by
preparing a business case and cost-benefit analysis.
Management’s Response: The CIO generally agreed with our recommendations. The
CIO agreed that the RIS prioritization process should be governed by the Capital
Planning and Investment Control (CPIC)7 portfolio priorities. The BSD organization will
participate in developing a process to gather and articulate its human capital demand. It
will also complete a skills gap analysis, develop a recruitment plan, and identify
appropriate retention incentives. The CIO also agreed to evaluate continuance of the
Taxonomy Repository through a cost-benefit analysis.
Office of Audit Comment: While IRS management did not specify using the RAM
function to ensure RIS compliance with the CPIC process, the corrective actions they
plan to take will address the recommendation. The CIO directed the MITS
organization’s Senior Leadership Team to develop a process for gathering and
articulating human capital demand in response to our September 2003 report about the
MITS organization’s human capital management. The corrective action to the
previously cited report was not completed, and the CIO’s corrective action to this
report’s recommendation is essentially the same as the previously planned action.
Lastly, the CIO presented a lower estimated cost to manage the Taxonomy Repository
than the costs we reported. Our cost estimates were based on documentation provided
by the BSD organization during our field work activities. The BSD organization did not
provide us any supporting documentation for the updated cost information it presented
in the response to the draft report. As a result, we retained our original outcome
measure estimates presented in Appendix IV. Management’s complete response to the
draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.



7
    The CPIC process manages a central portfolio of information technology investments across the IRS.
                  The Business Systems Development Organization Can Improve
                         Management of Information Services Requests




                                                  Table of Contents


Background ............................................................................................... Page 1
Several Measures Have Been Initiated to Improve the Request
for Information Services Process .............................................................. Page 2
The Requests for Information Services Selection and Prioritization
Process Can Be Improved ........................................................................ Page 3
         Recommendation 1: .......................................................................Page 9

A Workforce Profile Would Enhance Workload Planning and
Management ............................................................................................. Page 9
         Recommendation 2: .......................................................................Page 12

The Data in the Taxonomy Repository Are Not Completely Reliable ........ Page 13
         Recommendation 3: .......................................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 17
Appendix II – Major Contributors to This Report ....................................... Page 19
Appendix III – Report Distribution List ....................................................... Page 20
Appendix IV – Outcome Measures............................................................ Page 21
Appendix V – Overview of the Software Engineering Institute’s
People Capability Maturity Model .............................................................. Page 23
Appendix VI – Management’s Response to the Draft Report .................... Page 26
             The Business Systems Development Organization Can Improve
                    Management of Information Services Requests

                                One of the Internal Revenue Service’s (IRS) major
Background
                                strategies contained in the IRS Strategic Plan for
                                Fiscal Years (FY) 2000-2005 is to provide
                                high-quality, efficient, and responsive information services.
                                This strategy plans continuing support for current operations
                                with emphasis on increased quality and reduced costs of
                                routine operations and continued support to the Business
                                Systems Modernization program. The Business Systems
                                Development (BSD) organization is responsible for
                                defining, building, testing, delivering, and maintaining the
                                IRS’ information systems. The BSD organization’s work
                                supports the Modernization and Information Technology
                                Services (MITS) organization production environment in
                                achieving the business vision and objectives of the IRS.
                                The BSD organization is one of the largest functions in the
                                MITS organization in terms of both size and resources. For
                                FY 2004, the BSD organization had a budget of
                                $336 million and 1,916 full-time equivalent (FTE)1
                                positions. At the time of our review, the BSD organization
                                accomplished its work with seven subordinate offices:
                                •   Product Assurance Division.
                                •   Program Management and Release Readiness Office.
                                •   Compliance Systems Division.
                                •   Corporate Data and Systems Management Division.
                                •   Internal Management Systems Division.
                                •   Customer Applications Development Division (CADD).
                                •   Filing Systems Division (FSD).
                                The BSD organization receives information services
                                requests from the IRS’ business operating divisions and
                                functional organizations. It also receives information
                                services requests from the Division Information Officers
                                who manage demand and coordinate service between the
                                MITS organization and the IRS’ business operating
                                divisions and functional organizations. These information

                                1
                                 A measure of labor hours in which 1 FTE is equal to 8 hours
                                multiplied by the number of compensable days in a particular fiscal
                                year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
                                                                                                Page 1
               The Business Systems Development Organization Can Improve
                      Management of Information Services Requests

                                   services requests are received through the Request for
                                   Information Services (RIS) process, which provides a
                                   common framework to document, control, monitor, and
                                   track requirement changes to IRS computer systems and
                                   requests for information technology support. A RIS is a
                                   formal memorandum requesting BSD organization support
                                   for changes to current or planned programming, corporate
                                   hardware, commercial off-the-shelf software applications,
                                   system testing, and other MITS organization activities used
                                   in processing tax information. The RIS Tracking and
                                   Reporting System is a database and repository that
                                   maintains and tracks RIS documents and RIS responses.2
                                   This review was performed at the BSD organization’s
                                   offices in New Carrollton, Maryland, during the period
                                   March through July 2004. The audit was conducted in
                                   accordance with Government Auditing Standards. Detailed
                                   information on our audit objective, scope, and methodology
                                   is presented in Appendix I. Major contributors to the report
                                   are listed in Appendix II.
                                   Managing and coordinating computer programming
Several Measures Have Been
                                   changes is a challenge in an organization that processes
Initiated to Improve the Request
                                   about 1,500 information services requests annually. The
for Information Services Process
                                   MITS organization is addressing this challenge and is
                                   making progress in improving the information services
                                   request process. For example, the MITS organization has
                                   used its Resources Allocation and Measurement (RAM)
                                   function as a control to ensure the RISs considered the
                                   business practices and technology associated with the
                                   Enterprise Architecture.3 The MITS organization has
                                   supplemented this control by implementing standard
                                   operating procedures to refer the RISs to the Business
                                   Systems Modernization Office (BSMO) when they do not
                                   appear to comply with the Enterprise Architecture. The
                                   BSMO’s Systems Engineering and Integration office


                                   2
                                     The RIS response is a completed and signed memorandum
                                   documenting the MITS organization’s commitment to the work
                                   requested.
                                   3
                                     The Enterprise Architecture defines the IRS target business practices,
                                   the systems that enable the target business practices, and the technology
                                   that will support it, and serves as a guide to the IRS’ Modernization
                                   Program and investment decisions.
                                                                                                    Page 2
               The Business Systems Development Organization Can Improve
                      Management of Information Services Requests

                                  performs and documents this review. The MITS
                                  organization also sponsored a study to identify actions to
                                  improve the RIS process.
                                  The BSD organization has taken the following steps to
                                  improve the effectiveness and efficiency of the RIS process:
                                      •   Implemented the online RIS submission and RIS
                                          response process that uses the IRS’ Intranet to
                                          control and report RIS activity.
                                      •   Established a policy to only accept information
                                          services requests that are submitted through the
                                          online RIS submission process.
                                      •   Generated and distributed management information
                                          reports for BSD organization managers to monitor
                                          RIS responses and their completion.
                                      •   Scheduled regular meetings among the BSD
                                          organization subordinate offices to discuss the work
                                          status.
                                  Although the BSD organization has taken significant steps
                                  to improve its management of information services requests,
                                  managing the RIS inventory continues to be a challenge.
                                  The BSD organization established cut-off dates for RIS
The Requests for Information
                                  submissions to enable timely assignment and management
Services Selection and
                                  of the inventory of RIS receipts. Large portions of the
Prioritization Process Can Be
                                  receipts are required for the IRS’ tax return filing season4
Improved
                                  processing. The BSD organization asks for RIS
                                  submissions by the end of February for implementation
                                  during the following tax return filing season. These cut-off
                                  dates allow the BSD organization to complete the RISs to
                                  meet tax return filing season processing requirements.
                                  The BSD organization has timely completed the RISs
                                  selected for processing
                                  We analyzed the volume of all RISs received in the
                                  BSD organization from March 1, 2002, through
                                  February 29, 2004, to identify inventory trends. Table 1
                                  presents the inventory of RIS receipts in the BSD

                                  4
                                    The period from January through mid-April when most individual
                                  income tax returns are filed.
                                                                                               Page 3
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   organization and a further analysis of two of its subordinate
                   offices: the CADD and the FSD.5
                         Table 1: Requests for Information Services Received From
                                 March 1, 2002, Through February 29, 2004

                                                                                   All
                         RIS Submission Period          CADD          FSD       Divisions
                       March 1, 2002, through
                       February 28, 2003                 127          335         1,533
                       March 1, 2003, through
                       February 29, 2004                 183          394         1,478

                                                Total    310          729         3,011

                   Source: Treasury Inspector General for Tax Administration (TIGTA)
                   analysis of the BSD organization’s RIS receipts.

                   The BSD organization delivered the requested information
                   services it selected to its customers on a timely basis.
                           Table 2: Timeliness of Request for Information Systems
                                     Completions as of April 22, 2004*

                         Status         CADD               FSD              All Divisions
                       March 1, 2002, through February 28, 2003
                       Late or
                       Overdue         11 (12%)                0              44 (4%)
                       Timely          78 (88%)         275 (100%)          1,192 (96%)

                         Total             89               275                1,236
                       March 1, 2003, through February 29, 2004
                       Late or
                       Overdue          4 (5%)            1 (.5%)             20 (3%)
                       Timely          78 (95%)         203 (99.5%)          618 (97%)
                         Total             82               204                 638
                       * This table only includes RISs that were due for completion by this
                         date.

                   Source: TIGTA analysis of the BSD organization’s RIS receipts.


                   5
                     Based on our preliminary analysis to determine the number of receipts
                   assigned to the BSD subordinate offices and our discussion with the
                   Director, BSD, we chose to perform a detailed analysis on the RIS
                   receipts assigned to the CADD and FSD.
                                                                                       Page 4
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   The IRS’ Internal Revenue Manual (IRM) contains specific
                   categories for the BSD organization to use in prioritizing
                   RIS receipts to assure that the most important RISs are
                   selected and assigned for completion. At the time of our
                   review, the categories and their order of assignment priority
                   for the RIS receipts were:
                   1. Legislative - The RISs resulting from Congressional
                      legislation.
                   2. Sustaining Operations - The RISs to change the MITS
                      organization current production environment that, unless
                      implemented, will shut down critical information system
                      operations or will require procedures causing significant
                      resource use to continue IRS operations.
                   3. PRIME6 Modernization - The RISs generated by the
                      PRIME contractor’s Project Office requesting MITS
                      organization support and services for the development
                      and implementation of modernized IRS computer
                      systems.
                   4. Enhancements - The RISs to enhance the current
                      production environment; develop new systems or
                      functionality; implement Congressional, Government
                      Accountability Office (GAO), or TIGTA suggested
                      changes that are not legislative; or make changes
                      mandated by the Commissioner or the Department of the
                      Treasury due to political direction and management
                      decisions.
                   5. Commissioner’s Mandate - The RISs requested by the
                      Commissioner.
                   The BSD organization is in the process of revising these
                   categories. The RISs in the Commissioner’s Mandate
                   category will be combined with the Legislative RISs.
                   Another category will be added called Rust Replacement.
                   The RISs in this category involve replacing outdated
                   technology to meet current systemic requirements.



                   6
                     The PRIME contractor is the Computer Sciences Corporation, which
                   heads an alliance of leading technology companies brought together to
                   assist with the IRS’ efforts to modernize its computer systems and
                   related information technology.
                                                                                  Page 5
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   Table 3 presents an analysis of RIS receipts by category.
                         Table 3: Requests for Information Services Received by RIS
                                                  Category
                       Category*     L         S        P         E          C       Total
                   March 1, 2002, through February 28, 2003
                   CADD              5        68        1         43        10       127
                   FSD               48       184       9         82        12       335
                   All
                   Divisions        181       806       67       391        88       1,533
                   March 1, 2003, through February 29, 2004
                   CADD              8        105       0         70         0       183
                   FSD               54       253       1         86         0       394
                   All
                   Divisions        136       895       24       422         1       1,478
                   *RIS Categories: Legislative (L), Sustaining Operations (S),
                   PRIME Modernization (P), Enhancements (E), and
                   Commissioner’s Mandate (C).

                   Source: TIGTA analysis of the BSD organization’s RIS receipts.

                   The MITS organization’s RIS study has made
                   recommendations to improve the RIS selection and
                   assignment prioritization processes
                   The MITS organization sponsored a task force study that
                   included considering possible improvements to the RIS
                   process. The task force’s draft recommendations focus on
                   configuration management7 and related change control
                   processes. The MITS organization adopted the task force
                   recommendations that revise the RIS categories to assure
                   consistency between the IRM, the MITS change request and
                   RIS processes, the MITS budget, and the Capital Planning
                   and Investment Control (CPIC)8 portfolio.




                   7
                     Configuration management is the process of identifying and managing
                   the content of project information libraries.
                   8
                     The CPIC process manages a central portfolio of information
                   technology investments across the IRS.
                                                                                    Page 6
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   However, recommendations that have not yet been approved
                   include:
                   •    Requiring the business operating divisions and
                        functional organizations to provide the MITS
                        organization with a draft of their business needs 3 years
                        in advance.
                   •    Establishing one process for all MITS organization
                        change requests (including the RISs).
                   •    Centralizing the submission of all change requests to
                        one area within the MITS organization.
                   •    Restructuring the Configuration Control Board9 within
                        the MITS organization to enhance management
                        oversight of information services requests and the
                        assessment of the impact of information services
                        requests on the Enterprise Architecture.
                   The task force is awaiting concurrence or feedback from the
                   MITS organization executive management to finalize the
                   study’s recommendations.
                   The MITS organization’s revised governance structure
                   provides oversight of operations to ensure technology
                   investments align with the IRS policies and strategic
                   goals
                   The MITS organization Enterprise Governance (MEG)10
                   Investment Management (MIM) subcommittee was
                   established to ensure that information technology
                   investments comply with IRS policies and procedures and
                   align with enterprise, business operating division, and
                   functional organization strategic goals. The MIM
                   subcommittee is charged with providing general information
                   technology investment portfolio oversight including
                   investment prioritization recommendations, operational

                   9
                     The Configuration Control Board is a group of technical and
                   administrative experts with the assigned authority and responsibility to
                   make decisions on the configuration of a product, application group,
                   hardware, software, and documentation that satisfies an end-use
                   function.
                   10
                      The MEG is the highest level recommending and decision-making
                   body to oversee and enhance enterprise management of information
                   systems and technology.
                                                                                     Page 7
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   analysis reviews and reports, and recommendations for
                   adjustments to the IRS portfolio. In its portfolio oversight
                   role, the MIM subcommittee coordinates with the MEG,
                   Executive Steering Committees, MITS organization Change
                   Control Board, other governance bodies, organizational
                   units, and stakeholders. While the MIM subcommittee was
                   established to ensure the work is aligned with the business
                   operating division and functional organization strategic
                   goals, its charter does not include ensuring that information
                   services requests align with the technology investment
                   portfolio decisions. To address this issue, the MIM
                   subcommittee charter is being revised to align the requests
                   with the technology investment portfolio decisions.
                   The BSD organization works with the IRS business
                   operating divisions and functional organizations to develop
                   the content of the RIS memorandum. RIS receipts that are
                   selected for development and implementation are assigned
                   to the BSD organization’s subordinate offices based on their
                   respective responsibilities. After the RIS is forwarded to the
                   subordinate office, assignments are prioritized by RIS
                   category and then generally worked on a first-in first-out
                   basis. The BSD organization generally considers RISs in
                   the Legislative and Sustaining Operations categories as
                   mandatory assignments. The remaining categories are
                   considered more discretionary in assignment priority. The
                   BSD organization also considers the date RIS
                   implementation is needed in prioritizing assignments.
                   Including the MIM subcommittee’s technology investment
                   portfolio decisions in the prioritization process could
                   further improve assignment prioritization of the RISs. This
                   action would primarily affect the RISs considered
                   discretionary, which made up 30 percent of the RIS receipts
                   from March 2003 through February 2004. The MIM
                   subcommittee’s investment portfolio decisions will require
                   the business operating divisions and functional
                   organizations to identify and communicate future resource
                   and technology requirements (human resources, hardware,
                   and software) earlier than they do now. This planning will
                   be necessary to incorporate technology investments into
                   future funding requests.


                                                                          Page 8
              The Business Systems Development Organization Can Improve
                     Management of Information Services Requests

                                 Recommendation

                                 1. The Chief Information Officer (CIO) should incorporate
                                    the MIM subcommittee’s technology investment
                                    portfolio decisions into the RIS prioritization process.
                                    To accomplish this, the CIO should direct the BSD
                                    organization to work with the RAM function to
                                    supplement the existing Enterprise Architecture review
                                    process with a review to assure the MIM
                                    subcommittee’s investment decisions are considered in
                                    the RIS prioritization process.
                                 Management’s Response: The CIO agreed that the RIS
                                 prioritization process should be governed by the CPIC
                                 process priorities. The MITS organization will develop an
                                 action plan, complete the design and implementation of the
                                 CPIC process, develop and implement a communication
                                 strategy for sharing CPIC decisions, and develop and
                                 implement a strategy for verifying RIS compliance with the
                                 CPIC process.
                                 Office of Audit Comment: The CIO’s corrective action
                                 relies on the MEG and the MIM subcommittee to ensure
                                 RISs received for new initiatives or major changes to
                                 current initiatives will not be accepted and funded unless
                                 they have been approved through the CPIC process. While
                                 IRS management did not specify using the RAM function to
                                 ensure RIS compliance with the CPIC process, the
                                 corrective actions they plan to take will address the
                                 recommendation.
                                 In FY 2003, the BSD organization developed the Budget
A Workforce Profile Would
                                 Book database as an internal planning tool to track
Enhance Workload Planning and
                                 anticipated labor and nonlabor expenditures, including the
Management
                                 number of FTEs for each project. Each BSD organization
                                 subordinate office entered its budget information for all
                                 projects in the Budget Book. Although the costs for all
                                 RISs associated with a project are included in the Budget
                                 Book under the associated project, individual RIS resource
                                 expenditures are not included in the Budget Book, which
                                 prevents the identification and analysis of RIS costs.
                                 The BSD organization uses the Budget Book and prior year
                                 budget history data (FTE and nonlabor dollars) to estimate
                                 future workforce needs of information services requests and
                                                                                      Page 9
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   annual maintenance activities. It also uses prior year work
                   history to assess the knowledge and skills needed for future
                   work. However, it does not have a formal profile of its
                   staff’s current skills and abilities to allow it to align its
                   workforce with the workload.
                   To obtain an inventory of the staff’s skills and abilities, the
                   MITS organization asked its staff to complete a
                   self-assessment of their competencies (knowledge, skills,
                   and abilities) and experience for the MITS organization
                   Competency and Experience Inventory database.11
                   However, all BSD organization employees did not
                   participate in the survey. Also, because the survey was a
                   self-assessment, the skill levels designated by the employees
                   may not always agree with BSD organization management’s
                   assessment. BSD organization management does not use
                   the database as a tool to assess workforce capabilities or rely
                   on the information in the database as a skills inventory for
                   its staff.
                   In September 2003, we issued a report about the MITS
                   organization’s human capital management.12 Overall, the
                   report presented that the MITS organization’s Management
                   Services office made significant progress in developing its
                   human capital strategy. While these efforts were significant
                   and produced useful analyses for decision making, the
                   strategy needed further development to provide a roadmap
                   for the MITS organization to reach its goal of having the
                   right people, at the right time, to meet its mission. The
                   report also presented that additional planning was needed by
                   the MITS organization to identify human capital asset
                   demands for the existing programs. The CIO agreed with
                   our report and directed the MITS organization’s Senior
                   Leadership Team to develop a process for identifying and
                   articulating human capital demand. Completion of this
                   effort was scheduled for September 30, 2004.


                   11
                      The MITS organization Competency and Experience Inventory is a
                   central repository of the competencies and experience of the MITS
                   organization workforce.
                   12
                      The Modernization, Information Technology and Security Services
                   Organization Needs to Take Further Action to Complete Its Human
                   Capital Strategy (Reference Number 2003-20-209, dated
                   September 2003).
                                                                               Page 10
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   The President’s Management Agenda includes five
                   Government-wide initiatives that provide a strategy to
                   improve the management and performance of the Federal
                   Government. The first of these initiatives is Strategic
                   Management of Human Capital. The President’s human
                   capital initiative has launched a Government-wide effort to
                   focus Federal agencies on designing workforce planning and
                   forecasting models to ensure the Federal Government has
                   the right people, at the right time, to meet its mission.
                   Office of Management and Budget Circular A-123,
                   Management Accountability and Control, requires
                   management controls to be established that include
                   organization, policies, and procedures to help programs
                   achieve intended results and ensure resources are used
                   consistently with the agency’s mission. Further, level two
                   of the Software Engineering Institute’s People Capability
                   Maturity Model (People CMM)13 provides that a formal
                   process must be established to match committed work to
                   available resources. The type of skills and experience
                   needed to perform the proposed work are identified and
                   matched to the required tasks. Additional detail about the
                   People CMM as a foundation for managing human capital
                   in an organization is presented in Appendix V. This
                   appendix also includes our limited observations about the
                   BSD organization’s workforce management activities and
                   accomplishments as they relate to the People CMM maturity
                   level14 characteristics.
                   BSD organization management stated it did not have a
                   profile of the skills of the individual employees, nor did
                   they have the staff to track BSD organization skills used to
                   complete the work assignments. However, BSD
                   organization management stated it knows the skills and
                   capabilities of its staff to meet workload demands. BSD
                   organization management further stated they are prohibited
                   from maintaining a formal profile of individual employee


                   13
                      The People CMM consists of five maturity levels that lay successive
                   foundations for continuously improving talent, developing an effective
                   workforce, and successfully managing the human capital of an
                   organization.
                   14
                      A maturity level represents a level of workforce capability in an
                   organization.
                                                                                 Page 11
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   skills because of an agreement between the National
                   Treasury Employees Union and the IRS.
                   Having staff with the required skills to meet workload
                   demands is not always possible. BSD organization
                   management stated when specific skills are needed to
                   complete a RIS and the needed skills are not available
                   within the assigned group, the skill is either transferred in
                   from another group, or the work is accomplished by
                   contracting the work outside the IRS. BSD organization
                   management further stated the absence of adequate time to
                   anticipate RIS receipts may not allow them to identify, train,
                   or assign staff with the skills needed to deliver the RISs. To
                   date, BSD organization management has addressed this
                   shortfall by relying on the exceptional skills and abilities of
                   the workforce and overtime to meet workload demands.
                   The absence of a process to identify and catalog the BSD
                   organization’s staff skills, experience, and work
                   assignments makes it difficult for the BSD organization
                   management to quantify the capability of its workforce to
                   meet the workload demand. Also, an inadequate profile of
                   its staff does not allow the BSD organization to develop
                   succession plans to fill skill needs resulting from staff
                   attrition due to promotions, reassignments, retirements, and
                   departures. This is of particular interest because 40 percent
                   of the MITS organization’s workforce is approaching
                   retirement age. Without the ability to plan replacement of
                   lost skills and knowledge, the BSD organization will not
                   have a high degree of assurance that its staff will have the
                   expertise to perform critical computer programming
                   efficiently and effectively. Aligning the information
                   services requests with the technology investment portfolio
                   will help allow the BSD organization to anticipate the RIS
                   receipts with adequate lead time to meet the workload
                   demand. This lead time will also help the BSD organization
                   identify the type and amount of skills needed to deliver the
                   RISs.

                   Recommendation

                   2. The CIO should ensure the BSD organization works
                      with the MITS organization’s Director, Management
                      Services, in completing the corrective actions to our
                                                                          Page 12
               The Business Systems Development Organization Can Improve
                      Management of Information Services Requests

                                       prior report. This responsibility involves developing a
                                       process to identify and articulate human capital demand.
                                       In developing this process, consideration should be
                                       given to using the People CMM as a model in managing
                                       workforce capabilities. The BSD organization could
                                       also use the People CMM as guidance in aligning its
                                       workforce and workload with its subordinate offices.
                                  Management’s Response: The CIO agreed with our
                                  recommendation. The BSD organization will participate in
                                  developing a process to gather and articulate its human
                                  capital demand. Upon completion of the process, the BSD
                                  organization will use the model developed as a guide to
                                  provide human capital demand data to the Director,
                                  Management Services. It will also complete a skills gap
                                  analysis, develop a recruitment plan, and identify
                                  appropriate retention incentives.
                                  Office of Audit Comment: As previously stated, the CIO
                                  directed the MITS organization’s Senior Leadership Team
                                  to develop a process for gathering and articulating human
                                  capital demand in response to our September 2003 report
                                  about the MITS organization’s human capital management.
                                  Completion of this effort was scheduled for
                                  September 30, 2004. The corrective action to the previously
                                  cited report was not completed, and the CIO’s corrective
                                  action to this report’s recommendation is essentially the
                                  same as the previously planned action.

The Data in the Taxonomy          In May 2000, we issued a report that recommended
Repository Are Not Completely     developing written criteria for prioritizing the RISs.15
Reliable                          Management’s response to this report stated the BSD
                                  organization would use taxonomy16 to classify requirements
                                  with measurable criteria to prioritize critical versus
                                  noncritical changes.




                                  15
                                     The Internal Revenue Service’s Process for Controlling Filing Season
                                  Computer Programming Changes Does Not Ensure Critical Changes
                                  Are Effectively Implemented (Reference Number 2000-40-069, dated
                                  May 2000).
                                  16
                                     Taxonomy is the science or technique of classification dealing with
                                  identification and naming.
                                                                                                Page 13
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   The Taxonomy Project17 developed a database to allow
                   users to identify the BSD organization work projects,
                   subprograms and programs, and the resources associated
                   with them. The Taxonomy Project database resides on the
                   IRS Intranet to make it readily available for its users. As
                   such, it acts as an online, real-time tool to store, access, and
                   report project information. This tool is referred to as the
                   Taxonomy Repository.
                   The Taxonomy Repository was developed using an
                   evolving model based on user feedback. Neither a business
                   case nor a cost-benefit analysis was prepared as part of the
                   project development. The Repository was developed and
                   maintained by contractors until September 2003.
                   Subsequently, because the BSD organization budget was
                   reduced, the BSD organization assumed Taxonomy
                   Repository maintenance responsibilities using IRS
                   employees. The respective BSD organization subordinate
                   offices are responsible for updating their information in the
                   repository.
                   BSD organization management advised that the subordinate
                   offices have not consistently updated the Taxonomy
                   Repository. As a result, the database information is not
                   always reliable for use in managing information services
                   requests. Also, some BSD organization managers stated
                   they seldom use the Taxonomy Repository and the
                   information it contains is available in other systems
                   (e.g., Single Entry Time Reporting system18 and the
                   Automated Financial System19).
                   The GAO’s Standards for Internal Control in the Federal
                   Government state that information should be recorded and
                   communicated to management and others within the entity
                   who need it and in a form and within a time period that
                   enables them to carry out their responsibilities. Inconsistent
                   updates to the Repository reduce the accuracy and reliability

                   17
                      The Taxonomy Project will define the standard naming conventions
                   and the associated hierarchy for describing and documenting the work
                   that the BSD organization performs.
                   18
                      The Single Entry Time Reporting system is the IRS system used to
                   pay employees.
                   19
                      The Automated Financial System is a computer integrated accounting
                   and budgeting system.
                                                                               Page 14
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   of its data for BSD organization management’s use.
                   Without adequate resources assigned to maintain the
                   Repository, funds dedicated to its operations may be wasted.
                   Through FY 2004, the IRS will have spent $2,275,073 on
                   the Taxonomy Repository. Projected costs (including labor,
                   travel, and overtime) to continue operating the Repository
                   are about $759,800 over 5 years. Appendix IV presents
                   detailed information on the measurable impact of these
                   costs.

                   Recommendation

                   3. The CIO should evaluate the Taxonomy Repository to
                      determine whether it should continue to be funded and
                      maintained by preparing a business case and cost-benefit
                      analysis. The determination should:
                      •   Assess the utilization of the Taxonomy Repository
                          to determine whether it is needed or alternative
                          sources of information are available.
                      •   Determine how to ensure the Taxonomy Repository
                          includes all required information and how the
                          information will be timely and consistently updated
                          if the project is continued.
                      •   Determine how maintenance and further Taxonomy
                          Repository development will be funded if the project
                          is continued.
                   Management’s Response: The CIO agreed to evaluate the
                   Taxonomy Repository through a cost-benefit analysis to
                   determine if it should be continued. Although BSD
                   organization management agreed implementation of the
                   recommendation will result in cost savings, it disagreed
                   with our cost savings estimate as shown in Appendix IV. In
                   its response, BSD organization management stated it only
                   required 30 percent of an FTE to manage the Taxonomy
                   Repository. Based on BSD organization management’s
                   estimate, it would have a 1-year cost savings of $22,194 and
                   a 5-year cost savings of $110,970 for the FTEs and FTE
                   benefits. (See Appendix VI for BSD organization
                   management’s cost savings computation.)


                                                                       Page 15
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                   Office of Audit Comment: BSD organization management
                   provided us documentation during the course of our field
                   work showing it needed two FTEs to manage the Taxonomy
                   Repository in FY 2004. We have not received
                   documentation showing why the FTE use should be reduced
                   to 30 percent. As a result, we have retained our original
                   outcome measure estimate presented earlier and in
                   Appendix IV.




                                                                    Page 16
               The Business Systems Development Organization Can Improve
                      Management of Information Services Requests

                                                                                            Appendix I


                        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the Business Systems Development (BSD)
organization’s efforts to effectively manage its information services requests. This review is the
first in a series of reviews of the BSD organization and is part of our Fiscal Year 2004 audit plan
for reviews to assess the adequacy of the Internal Revenue Service’s information technology. To
accomplish this objective, we:
I.      Evaluated the BSD organization Filing Systems and Customer Applications Development
        Divisions’ efforts to effectively manage its information services requests.
        A. Interviewed BSD organization management from the selected divisions to determine
           how they selected and prioritized information services requests (i.e., Request for
           Information Services [RIS], maintenance requests [hardware maintenance], and
           projects initiated by the Business Systems Planning/Division Information Officer
           Council).
        B. Analyzed information services requests to determine whether the divisions timely and
           adequately managed resources to meet information services requests requirements.
           We received RIS Tracking and Reporting System (RTRS) data about RIS responses1
           and completion activity from the BSD organization. The analysis included RIS
           receipts from March 1, 2002, through February 29, 2004. Based on our preliminary
           analysis to determine the number of receipts assigned to the BSD organization
           subordinate offices and our discussion with the Director, BSD, we chose to perform a
           detailed analysis on the RIS receipts assigned to the Filing Systems and Customer
           Applications Development Divisions.
II.     Evaluated the findings and recommendations in the RIS Task Force Study and the BSD
        organization’s Configuration Management Survey on Change Control to identify
        additional opportunities to improve the process for selecting and prioritizing information
        services requests.
        A. Interviewed BSD organization management and analysts to determine whether and
           how the current and proposed information systems architecture was considered during
           the RIS assessment process.
        B. Interviewed BSD organization management and analysts to determine how they
           ensure the work they have chosen supports the Modernization and Information
           Technology Services organization’s strategic and program plans.


1
  The RIS response is a completed and signed memorandum documenting the MITS organization’s commitment to
the work requested.
                                                                                                  Page 17
               The Business Systems Development Organization Can Improve
                      Management of Information Services Requests

        C. Assessed the adequacy of the BSD organization’s actions to address and implement
           the recommendations from the RIS Task Force Study and the BSD organization’s
           Configuration Management Survey findings.
        D. Evaluated BSD organization management’s ability to manage and align its workforce
           to meet human capital demand by relating the BSD organization’s policies to the
           Software Engineering Institute’s People Capability Maturity Model (People CMM).2
III.    Assessed the BSD organization’s controls over using the RTRS for reviewing and
        responding to the RISs.
        A. Determined what controls were in place to ensure all RISs were controlled, addressed,
           and tracked through the RTRS.
        B. Analyzed the RISs to determine the efficiencies gained or available using the
           web-based RIS request system.




2
  The People CMM consists of five maturity levels that lay successive foundations for continuously improving
talent, developing an effective workforce, and successfully managing the human capital of an organization.



                                                                                                        Page 18
             The Business Systems Development Organization Can Improve
                    Management of Information Services Requests

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Tina Wong, Lead Auditor
Paul Mitchell, Senior Auditor
Linda Screws, Auditor




                                                                                         Page 19
            The Business Systems Development Organization Can Improve
                   Management of Information Services Requests

                                                                                Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Business Systems Development OS:CIO:I:B
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Director, Business Systems Development OS:CIO:I:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                     Page 20
                The Business Systems Development Organization Can Improve
                       Management of Information Services Requests

                                                                                                 Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $3,014,873 (see page 13).
Methodology Used to Measure the Reported Benefit:
We reviewed the use of the Taxonomy1 Repository as a resource to control the Business Systems
Development’s (BSD) organization’s work. We determined that the Taxonomy Repository is
not used to control BSD organization work but is an inventory of projects. The BSD
organization’s management stated that the Repository’s data are not always complete and
accurate and the data are available from other sources. We recommended the Chief Information
Officer (CIO) evaluate the Taxonomy Repository to determine whether it should continue to be
funded and maintained by preparing a business case and cost-benefit analysis. We determined
the cost of the Taxonomy Repository between Fiscal Years (FY) 2000 and 2004 was $2,275,073.
Additional labor costs to maintain the Taxonomy Repository from FY 2005 to 2009 are
estimated at $739,800.


Description                                                                                  Amount
FY 2000 – 2003 Taxonomy Task Order                                                         $2,123,113
FY 2004 estimated costs for two full-time equivalents (FTE)2
(2 FTEs @ $59,184)3                                                                         $118,368

FY 2004 estimated costs for FTE benefits
                                                                                             $29,592
(2 FTEs @ $59,184 x 25%)
FY 2004 estimated related travel and overtime costs                                           $4,000
FY 2000 through 2004 Total                                                                 $2,275,073



1
  Taxonomy is the science or technique of classification dealing with identification and naming.
2
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
3
  We calculated the FTE cost using the 2210-job series (Information Technology Specialist) at Grade 11 Step 5.
                                                                                                         Page 21
             The Business Systems Development Organization Can Improve
                    Management of Information Services Requests




Estimated FTE Costs for FY 2005 through 2009                                          Amount
Estimated 1 year costs ($118,368 + $29,592)                                          $147,960
Estimated 5 year FTE savings ($147,960 x 5)                                          $739,800


Type and Value of Outcome Measure:
•   Cost Savings, Funds Put to Better Use – Potential; $20,000 (see page 13).
Methodology Used to Measure the Reported Benefit:
We reviewed the use of the Taxonomy Repository as a resource to control the BSD
organization’s work. We determined the Taxonomy Repository is not used to control BSD
organization’s work but is an inventory of projects. The BSD organization’s management stated
the Repository’s data are not always complete and accurate, and the data are available from other
sources. We recommended the CIO evaluate the Taxonomy Repository to determine whether it
should continue to be funded and maintained by preparing a business case and cost-benefit
analysis. We determined that the BSD organization could realize a potential cost savings of
$20,000 over 5 years by discontinuing the Taxonomy Repository.
Estimated Cost Savings                                                                Amount
FY 2004 Estimated related travel and overtime costs                                     $4,000
Estimated 5 year savings ($4,000 x 5)                                                  $20,000




                                                                                         Page 22
                The Business Systems Development Organization Can Improve
                       Management of Information Services Requests

                                                                                       Appendix V


                        Overview of the Software Engineering Institute’s
                               People Capability Maturity Model

The Software Engineering Institute’s People Capability Maturity Model (People CMM) consists
of five maturity levels1 that lay successive foundations for managing the human capital of an
organization. Achieving each layer of the maturity results in an overall increase in the workforce
capability of the organization. This can be defined as the level of knowledge, skills, and process
abilities available for performing an organization’s current and future business activities. Each
maturity level is composed of several process areas. Each process area contains a set of goals
that, when satisfied, establish that process area’s ability to affect workforce capability. Each
process area organizes a set of interrelated practices2 in a critical area of workforce management,
such as staffing, compensation, or workgroup development. The practices, when collectively
addressed, accomplish the goals of the process area. The practices state the policies, procedures,
and activities for the process area. The following describes some of the attributes of the five
maturity levels:
•   Level one - Workforce practices are developed as needed and are inconsistent. There are no
    policies for managing the workforce.
•   Level two - Managers take responsibility for issues such as staffing, coordinating
    commitments, providing resources, and developing skills. Management establishes policies
    and procedures to document the unit-staffing3 activities. A formal process is established by
    which committed work is matched to unit resources.
•   Level three - The organization ties the capability of the workforce to strategic business
    objectives and develops strategic workforce plans. Through workforce planning, the
    organization identifies the workforce it needs for its current and future business activities;
    plans the actions to be taken to ensure the required workforce is available when needed;
    defines the competency-based processes that an individual in each workforce competency
    would be expected to perform in accomplishing their committed work; and establishes an
    organizational framework for developing the knowledge, skills, and process abilities of its
    workforce.
•   Level four - The organization is able to predict its capability for performing work because it
    can quantify the capability of its workforce. Workforce competencies are integrated to
    improve the efficiency of interdependent work and procedures are developed for guiding the
    organization’s competency integration activities. Measurements are used to determine the
    status, performance, and effectiveness of competency integration activities. The organization

1
  A maturity level represents a level of workforce capability in an organization.
2
  Practice refers to standard, defined workforce management processes.
3
  A unit is a single, well-defined organizational component within an organization.
                                                                                             Page 23
             The Business Systems Development Organization Can Improve
                    Management of Information Services Requests

    has a documented policy for conducting empowered workgroup activities, which are
    included in the strategic workforce plan. The knowledge, experience, and artifacts resulting
    from performing competency-based processes are developed into competency-based assets
    that can be reused by other members of their competency community. The organization
    determines its capability and quantitative trends in each of its workforce competencies
    relative to objectives established in its strategic workforce plan.
•   Level five - The entire organization is focused on continual improvement with change
    management as an ordinary business process to be performed in an orderly way on a regular
    basis. Lessons learned are documented. Practices within this process allow management to
    integrate the entire enterprise and use workforce activities strategically to achieve
    organizational business objectives.
Although skipping entire maturity levels will eventually hamper an improvement program, the
People CMM does not prohibit an organization from implementing practices or activities from
higher maturity levels that can improve its performance.
The table on the next page presents our limited observations about some of the Business Systems
Development’s (BSD) organization management practices and how they relate to the People
CMM.




                                                                                          Page 24
                 The Business Systems Development Organization Can Improve
                        Management of Information Services Requests


          Comparison of the Business Systems Development’s Activities to the
                           People Capability Maturity Model
People CMM
   Level              People CMM Practice                             BSD Organization Activity
              Work is chronically over committed      Management relies on the heroic efforts of their
              with results depending on the skills of workforce and overtime to complete work timely.
     1
              exceptional individuals and on
              excessive overtime.
              Management often refers to the staff     The BSD organization is able to complete its work
     1        as their most important asset.           because of the exceptional skills and abilities of the
                                                       present workforce.
              The organization has not established     Management stated they are prohibited from gathering
              policies for managing the workforce.     labor information on employees. The BSD organization
                                                       does not use the Modernization and Information
     1
                                                       Technology Services (MITS) organization Competencies,
                                                       Skills, and Experience Inventory to assess workforce
                                                       capabilities.
              Managers take responsibility for         Management knows the capabilities of their staff and
     2        developing the skills of their staff.    ensures training is provided.

              Management establishes policies and The BSD organization controls, addresses, and tracks all
     2        procedures to document unit-staffing Requests for Information Services (RIS) through the RIS
              activities.                          Tracking and Reporting System.
              Management takes responsibility for  The BSD organization recognizes employees with
     2        making compensation decisions to its awards and incentives.
              staff.
              The organization defines the             The MITS organization developed the Competencies,
              competency-based processes that an       Skills, and Experience Inventory to determine the
     3
              individual would be expected to          baseline of competencies and experience at any point in
              perform.                                 time.
              Subject matter experts are involved in Subject matter experts are participating in the
              analyzing the knowledge, skills, and   identification of curricula for the Information Technology
     3
              process abilities required to perform  Specialists (2210 job series).
              their committed work.
              Training and development practices   The MITS organization develops and delivers training
     3        are focused on developing knowledge, products and services, which the BSD organization uses.
              skills, and process abilities.

              The organization develops strategic      The MITS organization developed the strategic workforce
     3        workforce plans.                         plan with the BSD organization as a component.

  Source: The Carnegie Mellon Software Engineering Institute.

                                                                                                       Page 25
The Business Systems Development Organization Can Improve
       Management of Information Services Requests

                                                            Appendix VI


       Management’s Response to the Draft Report




                                                                 Page 26
The Business Systems Development Organization Can Improve
       Management of Information Services Requests




                                                            Page 27
The Business Systems Development Organization Can Improve
       Management of Information Services Requests




                                                            Page 28
The Business Systems Development Organization Can Improve
       Management of Information Services Requests




                                                            Page 29
The Business Systems Development Organization Can Improve
       Management of Information Services Requests




                                                            Page 30
The Business Systems Development Organization Can Improve
       Management of Information Services Requests




                                                            Page 31
